        MACGILLIVRAY FREEMAN FILMS
          2740 South Coast Highway #F
            Laguna Beach, CA 92651
   National Science Foundation Award Numbers
                  ESI-9896307
                  ESI-0003650
                  ESI-0125471
              Financial Schedules and
           Independent Auditors’ Reports
For the Period August 1, 1998 to September 30, 2003




                                           CONRAD AND ASSOCIATES, L.L.P.
                                                 Certified Public Accountants
                                                2301 Dupont Drive, Suite 200
                                                      Irvine, California 92612
                    FOR OFFICIAL USE ONLY

                REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE
NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE APPROVAL BY
THE NSF OFFICE OF INSPECTOR GENERAL. THE ONLY EXCEPTION IS AN
AGENCY INVOLVED IN NEGOTIATING OR ADMINISTERING NSF AWARDS.
THE INFORMATION IN THIS REPORT SHOULD BE TREATED AS
CONFIDENTIAL AND MAY NOT BE USED FOR PURPOSES OTHER THAN
ORIGINALLY INTENDED WITHOUT PRIOR CONCURRENCE FROM THE NSF
OFFICE OF INSPECTOR GENERAL.
                                                         MACGILLIVRAY FREEMAN FILMS


                                                                      Table of Contents

                                                                                                                                                                   Page

Executive Summary:
  Background....................................................................................................................................................     1
  Audit Objectives, Scope and Methodology....................................................................................................                        1
  Summary of Audit Results .............................................................................................................................             2
  Summary of Recommendations ....................................................................................................................                    3
  Summary of Auditee’s Response to Audit Results ........................................................................................                            3
  Exit Conference .............................................................................................................................................      3

Findings and Recommendations:
   Independent Auditors’ Report on Compliance with Laws and Regulations
    and Internal Controls ...................................................................................................................................        4

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules .................................................................................                             9
   Schedule A-1 - Schedule of Award Costs (Award No. ESI-9896307) ...........................................................                                       11
   Schedule A-2 - Schedule of Award Costs (Award No. ESI-0003650) ..........................................................                                        12
   Schedule A-3 - Schedule of Award Costs (Award No. ESI-0125471) ...........................................................                                       13
   Schedule B - Summary Schedules of Awards Audited and Audit Results ....................................................                                          14
   Notes to Financial Schedules .......................................................................................................................             15

Appendix - Awardee’s Comments to Report
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
(Continued)

    2. Identify matters concerning instances of noncompliance with laws, regulations, and the provisions of the
    award agreement(s) pertaining to NSF awards and weaknesses in the awardee’s internal control over
    financial reporting that could have a direct and material effect on the Schedule of Award Costs.

To accomplish the objectives of the audit, we:

    •   Prepared a survey and internal control audit-planning document for OIG review and approval. The
        document included the proposed audit program and sampling methodology for performing the audit
        survey, gaining an understanding of the grantee’s policies and procedures and financial systems for
        administering its NSF awards, identifying risks in the grantee’s operations for effectively administering its
        NSF awards, and testing the grantee’s significant internal controls to determine whether those controls
        are operating effectively to mitigate the identified risk.
    •   Prepared a survey and internal control assessment report for OIG review and approval. The assessment
        report included a summary of the results of the on-site audit survey and testing of significant internal
        controls.
    •   Prepared a substantive audit testing planning document for OIG review and approval. The document
        included the proposed audit program including sections on tests of compliance with applicable laws and
        regulations, and substantive testing procedures to determine whether costs charged to the NSF award(s)
        by the awardee are allowable, allocable, and reasonable in accordance with the applicable Federal cost
        principles and award terms and conditions.
    •   Prepared Notification of Findings (NOFs) based on the results of audit fieldwork. The NOFs included
        detailed information on each finding identified.

Our audit was conducted in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards (1994 Revision) issued by the Comptroller General of the United
States of America. Our audit of the aforementioned awards used non-statistical sampling to test the costs
claimed by MacGillivray to test for compliance with Federal laws and the NSF award requirements.

SUMMARY OF AUDIT RESULTS

Costs charged to the NSF awards by MacGillivray appear allowable, allocable, and reasonable, in accordance
with the applicable Federal Cost principles and NSF award terms and conditions. No costs were questioned in
the audit.

MacGillivray's systems of internal controls appear adequate to properly administer, account for, and monitor its
NSF awards in compliance with NSF and Federal requirements. No compliance or internal control deficiencies
that would materially affect the administration of the awards were noted. However, we did note opportunities for
MacGillivray to strengthen internal controls in the areas of consulting expense, travel, and cost sharing.

The issues are briefly described below. For the complete findings, refer to the Independent Auditors’ Report on
Compliance with Laws and Regulations and Internal Controls.

Consulting Expenditures – A significant portion of MacGillivray's award activities are performed by independent
contractors, who may serve as personnel assisting in award performance or consultants who provide professional
advice or service. Consultant rates are subject to daily limits established by NSF regulations, making the
identification of consultants important. Although we did not determine any of the independent contractor charges
to be consultants, which are subject to the maximum rates, MacGillivray's lack of written policies and procedures
in place to identify the role and differentiate in the treatment of its independent contractors, risks all consulting
costs being mistaken as contractor costs and, therefore exceeding the daily allowable consulting rate on NSF
awards.



                                                         2
National Science Foundation
Office of Inspector General
(Continued)

International Travel – MacGillivray incurs substantial international travel in NSF award performance. However,
MacGillivray does not have written policies and procedures in place to review international airfare expenditures to
ensure costs charged to NSF comply with NSF regulations. Certain NSF rules and regulations apply when
international travel is involved, specifically the use of U.S. air carriers when available. Although we did not
question any travel cost in this audit, MacGillivray's failure to have proper policies and procedures in place
requiring review of international airfare expenditures for compliance with NSF regulations could lead to
unallowable costs.

Cost Sharing – MacGillivray did not submit annual required cost-sharing certifications. The certification
information provides NSF assurance that cost sharing requirements are being met and provides NSF the ability to
resolve any potential cost-sharing problems before a particular award expires. We did not question any of
MacGillivray's cost sharing, noting that MacGillivray has satisfactorily met the cost-sharing requirement for the two
completed awards and that the third award is still in progress. However, MacGillivray needs written policies and
procedures to ensure the cost-sharing certification is annually and accurately completed and submitted.

SUMMARY OF RECOMMENDATIONS

To address the internal control issues noted, we recommend that the Directors of NSF’s Division of Acquisition
and Cost Support (DACS) and the Division of Grants and Agreements (DGA) require that MacGillivray develop
and implement written policies and procedures to ensure that: (1) contractors and consultant costs are properly
identified and appropriately reviewed for compliance with NSF regulations; (2) travel costs charged to the grant
awards are allowable and in compliance with NSF GC-1, Article 10 – Travel; (3) actual incurred cost sharing
expenditures are accurately certified and reported to NSF on an annual basis.

SUMMARY OF AUDITEE’S RESPONSE TO AUDIT RESULTS

MacGillivray Freeman Films has agreed with our recommendations to strengthen internal controls in the areas of
consulting expenditures, international travel, and cost sharing. MacGillivray has also revised its own written
policies and procedures to match our recommendations. See the Appendix section of this report for a complete
copy of MacGillivray’s response to the recommendations.

EXIT CONFERENCE

An exit conference was held on December 3, 2003 at MacGillivray Freeman Films’ office located at 2740 South
Coast Highway, Laguna Beach, California 92651. Preliminary findings and recommendations noted during the
audit were discussed with those in attendance. MacGillivray was informed that the preliminary findings and
recommendations were subject to final review by NSF and the report may include additional findings and
recommendations and/or omit certain items discussed.

MacGillivray Freeman Film

           Name                                           Title
        XXXXXXXXXXX                                       XXXXXXXXXXXX
        XXXXXXXXXXX                                       XXXXXXXXXXXX

Conrad and Associates, L.L.P.

           Name                                           Title
        XXXXXXXXXXX                                       XXXXXXXXXXXX




                                                         3
INDEPENDENT AUDITORS' REPORTS
National Science Foundation
Office of Inspector General
(Continued)

determine our auditing procedures for the purpose of expressing our opinion on the financial schedules and not to
provide an opinion on internal control. Accordingly, we do not express such an opinion.

Our consideration of internal control would not necessarily disclose all matters related to internal control over
financial reporting that might be reportable conditions under standards established by the American Institute of
Certified Public Accountants. Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control over financial reporting that, in our judgment, could
adversely affect the entity’s ability to record, process, summarize and report financial data in a manner consistent
with the assertions of management in the financial schedule.

A material weakness is a condition in which the design or operation of one or more of internal control elements
does not reduce to a relatively low level the risk that misstatements in amounts that would be material in relation
to the financial schedules being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of the inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

We noted no matters involving the internal controls over financial reporting and its operation that we consider to
be material weaknesses. However, we did note the following matters where internal controls could be
strengthened to further improve MacGillivray Freeman Film’s ability to monitor and administer NSF grant awards.

Finding No. 1 – Consulting Expenditures – NSF normally expects grantees to use their own staff to carry out
award activities. However, film production requires individuals who possess highly specialized skills in areas such
as underwater or aerial photography, special effects, and film narration. Maintaining a full-time staff with these
varied and highly technical skills is usually not cost effective. Therefore, MacGillivray subcontracts a significant
portion of its award activity to independent contractors. MacGillivray also obtains the services of consultants who
provide professional advice or services.

MacGillivray’s written policies and procedures for determining the allowability of costs in accordance with the
terms and conditions of its awards did not differentiate in the treatment of independent contractors and consultant
services. Differentiation is important because NSF regulations set specific limits on the daily rate of pay for
consultants, which are not applicable to independent contractors.

NSF GC-1, Article 5 – Consultants, states: “Payments to individuals for consultant services under this grant shall
not exceed the daily equivalent of the then current maximum rate paid to an Executive Schedule Level IT Federal
employee (exclusive of indirect cost, travel, per diem, clerical services, fringe benefits and supplies).”1

MacGillivray’s lack of procedures for identifying and distinguishing between an individual or company that is
performing as a subcontractor as opposed to consultant that provides professional advice or services may lead to
NSF funding consultant expenditures that exceed the NSF established daily limit. MacGillivray stated that they
were not aware that a distinction between consultant and independent contractor was necessary.

We did not question any of MacGillivray's consulting costs, as inquires with personnel and additional review of
documentation led us to conclude that the transactions charged to the grants were independent contractor costs,
which are not subject to the daily maximum limit. However, the current policy should be strengthened to provide
MacGillivray the ability to identify and differentiate consultant and independent contractor costs by requiring
appropriate institutional review and approval of each transaction for compliance with NSF policy before any actual
costs are incurred.

Recommendation No. 1 – Consulting Expenditures - We recommend that NSF’s Directors of DACS and DGA
ensure that MacGillivray Freeman Films develop and implement written policies and procedures to ensure that
subcontract and consultant costs are properly identified and appropriately reviewed for compliance with NSF
grant policy.


1
 The current rate (as well as prior archived rates) is available on the NSF Web site at:
http://www.nsf.gov/bfa/cpo/policy/faqs.htm#cons.
                                                         5
National Science Foundation
Office of Inspector General
(Continued)


Awardee Comments

MacGillivray’s has revised its policies and procedures and have stated that in the future, the accounting system
job cost production sub code, “0007,” will constitute the designation for consultants subject to NSF daily cost
limits. Also, to ensure further compliance with the NSF daily cost limits prevailing for the then current maximum
rate paid to an Executive Schedule Level IT Federal employee, daily rates will be incorporated in the consultants’
deal memos or contracts. These daily cost limits will be reviewed for compliance prior to the execution of the deal
memo or contract by MacGillivray’s general manager and are monitored for ongoing compliance by the
MacGillivray accounting department by referencing the NSF Web site. (See the Appendix section of this report
for a complete copy of MacGillivray’s response to the recommendations.)


Finding No. 2 – International Travel - MacGillivray films are known for subject matter based in remote and
international locations such as the South Pacific for the Coral Reef Adventure. As such, MacGillivray incurs
substantial international travel costs on most of its films including the three NSF awards within the audit’s scope.

National Science Foundation Grant General Conditions (GC-1), Article 10 – Travel, Section C, Paragraph 2,
states: “Any air transportation to, from, between, or within a country other than the U.S. of persons or property,
the expense of which will be assisted by NSF funding, must be performed by or under a code-sharing
arrangement with a U.S.-flag air carrier if service provided by such a carrier is available (see Comp Gen. Decision
B-240956, dated September 25, 1991). Tickets (or documentation for electronic tickets) must identify the U.S.
flag carrier’s designator code and flight number.”

MacGillivray’s procedures for determining the allowability of costs in accordance with award terms and conditions
did not provide for a review of international air carriers to ensure compliance with the award conditions. While
MacGillivray makes extensive searches for air travel to minimize the costs and length of flight, it does not ensure
international travel is by or under a cost sharing agreement with a U.S. carrier which may led to NSF funding
unallowable airfare costs.

We did not question any travel costs as our review found them to be reasonable, allowable, and allocable per
NSF regulations. However, MacGillivray could strengthen internal controls by developing and implementing
policies and procedures requiring an institutional review of international air carriers for compliance with the
foreign-flag carrier restrictions before any actual costs are incurred.

Recommendation No. 2 – International Travel - We recommend that NSF’s Directors of DACS and DGA
ensure that MacGillivray Freeman Films develop and implement written policies and procedures to ensure that
international travel costs charged to the grant awards are allowable and in compliance with NSF GC-1, Article 10
– Travel.


Awardee Comments

MacGillivray has stated that it has revised its policies and procedures to be compliant with NSF GC-1 Article 10 –
Travel. Additionally, at times it may be necessary to use international carriers as described in the NSF Travel
Conditions, paragraph 10 c 4 (b) and (c); and 10 d 1 (a) (b), 2 (a) (b) (c) and 3. In order to document these
circumstances and the selection of international carriers over U.S. air carriers, as part of its travel and cargo
expense policies and procedures, MacGillivray will retain in its files the appropriate explanation and underlying
documentation for the selection of international carriers versus U.S. air carriers. When the use of international
carriers is clearly the first choice for cost, safety or efficiency reasons and is outside the NSF Travel Conditions,
MacGillivray will solicit a waiver of the NSF Travel Conditions from the NSF while providing airfare/cargo charge
and schedule comparisons between international and U.S. air carriers, to support the selection of international
carriers based on lower cost and/or efficiency. (See the Appendix section of this report for a complete copy of
MacGillivray’s response to the recommendations.)




                                                         6
National Science Foundation
Office of Inspector General
(Continued)

Finding No. 3 – Cost Sharing - The three NSF awards under audit required cost sharing of $1.5 million, $7.2
million, and $4.6 million, respectively, and were each subject to NSF’s annual cost sharing certification
requirement.

National Science Foundation Grant General Conditions (GC-1), Article 22 – Cost Sharing and Costs Sharing
Records, Section D states in part: “Unless otherwise required by the award or requested by NSF, the actual cost
participation by the awardee, while subject to documentation and audit, need not be reported to NSF. In cases,
however, where the cost sharing amount reflected on Line M of the cumulative award budget is $500,000
or more, the amount of cost sharing must be documented (on an annual and final basis), certified by the
Authorized Organizational Representative, and reported to the NSF Program Officer.”

Prior to our audit, MacGillivray had not submitted cost sharing reports for any of its three awards to NSF. At the
time of our audit, MacGillivray should have submitted a total of 5 cost-sharing reports under the three grants
within the audit scope. Although MacGillivray submitted annual progress reports, which included the original
proposed amount of cost sharing, the status of MacGillivray’s actual contributions was not reflected in the report.

MacGillivray’s failure to submit annual cost sharing certifications reduces NSF’s assurance that cost-sharing
requirements are being met and limits NSF’s ability to resolve any potential cost sharing problems before a
particular award expires.

This problem occurred because MacGillivray was not aware of the requirement to annually submit cost-sharing
certifications. Further, because NSF did not request the grantee to provide any additional information regarding
the financial data, MacGillivray assumed that all required reports were being properly completed and submitted to
NSF.

We did not question any of MacGillivray's cost sharing, as we found that requirements were properly satisfied for
two of the three awards, with the third grant still in progress. However, internal controls should be strengthened
to better ensure MacGillivray's consistent completion and submission of annual cost sharing certifications and
improve NSF’s ability to track and monitor cost sharing obligations.

Recommendation No. 3 – Cost Sharing - We recommend that NSF’s Directors of DACS and DGA ensure that
MacGillivray Freeman Films develop and implement written policies and procedures to ensure actual incurred
cost sharing is accurately certified and reported to NSF with the annual progress report.


Awardee Comments

MacGillivray has been working with NSF as the recipient of several grants since 1997. MacGillivray had believed
that it was in compliance with regards to cost sharing certification, as it was never notified by NSF, that in fact it
was not. MacGillivray believed the annual report served as the cost sharing certification.

When MacGillivray submitted an annual report for NSF Award #0125471 via Fastlane in January 2004, an email
was automatically forwarded to MacGillivray requesting that it complete a cost sharing notification form via
Fastlane and through the newly updated Research Administration area of Fastlane. The note indicated that until
MacGillivray completed and submitted that cost sharing form, the annual report would be deemed unsubmitted.
This is a new feature of Fastlane and will, in the future, guarantee that on an annual basis, MacGillivray declares
its cost sharing for each project for which it is required.

Revised MacGillivray Policy and Procedure
After review for NSF compliance by the MacGillivray accounting department and approval by the MacGillivray
director of finance, the annual submission of the MacGillivray cost sharing declaration via Fastlane shall hereby
constitute MacGillivray’s formal policy and procedure for compliance with the NSF annual cost sharing
certification requirement.




                                                          7
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                            Approved            Claimed             Questioned
              Cost Category                  Budget             Costs (A)             Costs
Direct costs:
  Salaries and wages
                                        $      XXXXX            XXXXX                      -
  Travel                                       XXXXX              X                        -
  Other direct costs:
     Material and supplies
                                               XXXXX               X                       -
     Consulting                                XXXXX               X                       -
     Subcontractor                             XXXXX              X                        -
     Other direct costs                        XXXXX            XXXXX                      -


           Total direct costs                1,540,560         1,541,896                   -

Indirect costs                                   1,336             -                       -

           Total                             1,541,896          1,541,896                  -

Cost sharing                           $     1,500,000          5,493,210                  -



  (A) - The total claimed costs agree with the total expenditures reported by MacGillivray Freeman Films on the
      Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended September 30,
      2001. Claimed costs reported above are taken from the awardee's books of accounts.




                                                         11
                                          Approved          Claimed             Questioned
               Cost Category               Budget           Costs (A)             Costs
Direct costs:
     Salaries and wages
                                     $      XXXXXX           XXXXXX                    -
   Other direct costs:
     Other direct costs                     XXXXXX           XXXXXX                    -

         Total direct costs                1,800,000         1,800,000                 -


Cost sharing                          $    7,188,834         7,271,915                 -



  (A) - The total claimed costs agree with the total expenditures reported by MacGillivray Freeman Films on
  the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended June 30,
  2003. Claimed costs reported above are taken from the awardee's books of accounts.




                                                       12
                                          Approved           Claimed              Questioned
             Cost Category                 Budget            Costs (A)              Costs
Direct costs:
  Salaries and wages
                                      $      XXXXXX           XXXXXX                      -
  Other direct costs:
     Other direct costs                    XXXXXXX             XXXXXX                     -

         Total direct costs                 1,451,250          365,235                    -


Cost sharing                                4,634,190         211,100                     -



  (A) - The total claimed costs agree with the total expenditures reported by MacGillivray Freeman Films on the
      Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended June 30,
      2003. Claimed costs reported above are taken from the awardee's books of accounts.




                                                        13
                                                                                         SCHEDULE B

                              MACGILLIVRAY FREEMAN FILMS
                      Summary Schedules of Awards Audited and Audit Results
                             From August 1, 1998 to June 30, 2003

Summary of Awards Audited

  Award Number            Award Period               Audit Period
 ESI – 9896307       08/01/98 – 09/30/01       08/01/98 – 09/30/01
 ESI – 0003650       01/01/01 – 05/31/03       01/01/01 – 05/31/03
 ESI – 0125471       05/01/02 – 06/30/05       05/01/02 – 06/30/03


  Award Number           Type of Award                        Award Description
 ESI – 9896307       Grant                     Development, production, and distribution of
                                               IMAX film titled, Journey Into Amazing Caves.
 ESI – 0003650       Grant                     Development, production, and distribution of
                                               IMAX film titled, Coral Reef Adventures.
 ESI – 0125471       Grant                     Development, production, and distribution of
                                               IMAX film documenting the Greek Islands.



Summary of Questioned and Unsupported Costs by Award

                                                         Questioned
  Award Number       Award Budget     Claimed Costs        Costs
 ESI – 9896307       $ 1,541,896      $ 1,541,896      $    -
 ESI – 0003650         1,800,000        1,800,000           -
 ESI – 0125471         1,451,250          365,235           -


Summary of Questioned Cost by Explanation

                               Questioned
          Category               Costs        Internal Controls            Non-Compliance
Salaries and Wages           $    -          No                       No
Fringe Benefits                   -          No                       No
Consulting                        -          Yes                      No
Subcontractors                    -          No                       No
Travel                            -          Yes                      No
Other Direct Costs                -          No                       No
Cost Sharing                      -          Yes                      No

Summary of Non-Compliance and Internal Control Findings

                                    Non-Compliance or Internal
            Findings                          Control?               Material or Reportable?
Consulting Expenditures           Internal Control                   Reportable
Travel Expenditures               Internal Control                   Reportable
Cost Sharing                      Internal Control                   Reportable




                                               14
                                     MACGILLIVRAY FREEMAN FILMS
                                        Notes to Financial Schedules
                                    From August 1, 1998 to June 30, 2003


Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedules have been prepared in conformity with National Science
          Foundation (NSF) instructions. Schedules A-1, A-2, and A-3 have been prepared from the reports
          submitted to NSF. The basis of accounting utilized in preparation of these reports differs from
          generally accepted accounting principles. The following information summarizes these differences:

           A. Equity
                Under the terms of the awards, all funds not expended according to the award agreement and
                budget at the end of the award period are to be returned to NSF. Therefore, the awardee does
                not maintain any equity in the award and any excess cash received from NSF over final
                expenditures is due back to NSF.

           B. Equipment
                Equipment is charged to expense in the period during which it is purchased instead of being
                recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
                the statement of award costs include the cost of equipment purchased during the period rather
                than a provision for depreciation.
                The equipment acquired is owned by MacGillivray Freeman Films while used in the program for
                which it was purchased or in other future authorized programs. However, NSF has the
                reversionary interest in the equipment. Its disposition, as well as the ownership of any proceeds
                there from, is subject to Federal regulations.

           C. Inventory
                Minor materials and supplies are charged to expense during the period of purchase. As a result,
                no inventory is recognized for these items in the financial schedules.

          The departure from generally accepted accounting principles allows NSF to properly monitor and track
          actual expenditures incurred by the grantee. The departure does not constitute a material weakness
          in internal controls.

Note 2:   NSF Cost Sharing and Matching
          The following represents the cost share requirements and actual cost share as of December 3, 2003:
                                     Cost Share        Actual Cost Share
             Award Number             Required              Provided            Over/(Under)
            ESI – 9896307         $ 1,500,000          $ 5,493,210            $ 3,993,210
            ESI – 0003650           7,188,834            7,271,915                 83,081
            ESI – 0125471           4,634,190              211,100             (4,423,090)*

          *Grant ESI-0125471 ends 6/30/05. Cost sharing is expected to be fully satisfied at the end of the grant
          period.

Note 3:   Indirect Cost Rates

          Indirect costs were not approved in the original or amended budgets. Therefore, no indirect costs
          were claimed on the awards.



                                                       15
APPENDIX - AUDITEE’S COMMENTS TO REPORT
March 3, 2004

XXXXXXXXXXX
XXXXXXX
Conrad and Associates, LLP
Certified Public Accountants
2301 Dupont Drive, Suite 200
Irvine, CA 92612

Re: National Science Foundation Draft Audit Report
    ESI-9896307 Caves, ESI-0003650 Coral Reef, ESI-0125471 Greece

XXXXXXXXXX:

We have received and reviewed the National Science Foundation (NSF) Draft Audit Report
(Report) covering the above referenced grants. We note that the Report does not identify any
Compliance Findings that require a specific response. As requested, we are responding to
your recommendations to improve internal control in the areas of consulting expense, travel
and cost sharing as follows:

Consulting Expenditures

Conrad Comment- A significant portion of MacGillivray's award activities are performed by
independent contactors, who may serve as personnel assisting in award performance or
consultants who provide professional advice or service. Consultant rates are subject to daily
limits established by NSF regulations, making the identification of independent contractors
important. Although we did not determine any of the independent contractor charges to be
consultants, which are subject to the maximum rates, MacGillivray's lack of written policies and
procedures in place to identify the role and differentiate in the treatment of its independent
contractors, leaves all such costs subject to mistaken identify and at risk for overcharging to NSF
awards.

MacGillivray Response- MacGillivray Freeman Films employs both independent contractors
and specialized consultants. We differentiate between these types of personnel by two
means with regard to accounting and production. A consultant is classified as someone who is
an expert in a specific subject or field, typically scientific in nature. These individuals are
classified most often as educational or science advisors, their contribution to a project being
on an "as needed," intellectual basis. These consultants sign specific agreements that state
they are an educational or science advisor. The payments are coded to a specific project code
and sub code, denoting that the payment is to a Consultant/Expert, i.e. "P" (for production
code and the number follows, such as "143") and then sub code "0007."


                                     Specializing in Film Production and
                             Production Technology in Advanced Cinema Formats
Independent contractors are hired for skills or services with respect to the actual physical
production aspects of a film. This would typically be production coordinators and managers
that arrange the various aspects of a location shoot for a project. Their contribution to a project
is usually in the form of a specific skill set. They sign a more comprehensive deal memo,
which states their job title and the time frame for which they have been hired. This usually
covers a specific location or occasionally for the project in general. Independent contractors
are also coded specifically within the MacGillivray accounting system, to the various areas of
production or post production.

Revised MacGillivray Policy and Procedure
MacGillivray's accounting system job cost production sub code, "0007," hereby constitutes
the designation for consultants subject to NSF daily cost limits. To ensure further compliance
with the NSF daily cost limits prevailing for the then current maximum rate paid to an
Executive Schedule Level IT Federal employee, daily rates are incorporated in the consultants'
deal memos or contracts. These daily cost limits are reviewed for compliance prior to the
execution of the deal memo or contract by MacGillivray's general manager and are
monitored for ongoing compliance by the MacGillivray accounting department by
referencing the NSF Web site at: http://www.nsf.gov/bfa/cpo/policy/faqs.htm#cons.

International Travel

Conrad Comment- MacGillivray incurs substantial travel in NSF award performance.
However, MacGillivray does not have written policies and procedures in place to review
international airfare expenditures to ensure costs charged to NSF comply with NSF
regulations. Certain NSF rules and regulations apply when international travel is involved;
specifically the use of U.S. air carriers when available. Although we did not question any
travel cost in this audit, MacGillivray's failure to have proper policies and procedures in place
requiring review of international airfare expenditures for compliance with NSF regulations
could lead to unallowable costs.

MacGillivray Response- MacGillivray staff is fully aware of the NSF regulations regarding
international air travel expenditures and the requirement to use U.S. carriers in accordance
with NSF Grant General Conditions (GC-1), Article 10 - Travel. While it is always
MacGillivray's first choice to use domestic U.S. carriers, due to the unique operational
characteristics of our industry, we are sometimes required to use international carriers to
operate efficiently, successfully, and at ultimate lowest cost. A typical foreign location
production shooting lasts several weeks and involves the transportation of crew as well as
tonnage of equipment, film, and supplies. It is imperative that crew and equipment/supplies
move efficiently through customs, are not exposed to damaging Xray devices, and arrive intact
and on time. Sometimes, MacGillivray is able to obtain reduced air fare and cargo rates from
international carriers in return for promotional consideration in the film. For these reasons
MacGillivray has found that it often makes sense, both operationally and financially, to use
a foreign carrier to handle the total round trip from Los Angeles to foreign destination and
back. It would make little sense, for
example, to use domestic flights from Los Angeles to New York, and then transfer tonnage to
a foreign carrier to final destination. The risk of loss, damage, additional handling expense,
and delays would all add to the final cost of the production. Also, scheduled air service may
not be available in some remote international locations, and MacGillivray may be required to
use foreign charter air services to move film crews and equipment. It is, and has always
been, MacGillivray's policy is to use the most efficient and cost effective methods of moving
crew and equipment to locations while giving priority to U.S. air carriers.

Revised MacGillivray Policy and Procedure
It is MacGillivray's policy, in compliance with NSF Grant General Conditions (GC-1), Article
10 - Travel (NSF Travel Conditions), to use U.S. air carriers (or carriers under a code-sharing
arrangement with a U.S. air carrier) if the service provided by such a carrier is available and is in
accordance with NSF Travel Conditions. However, at times, it may be necessary to use
international carriers as described in the NSF Travel Conditions, paragraph 10 c 4 (b) and (c);
and 10 d 1 (a) (b), 2 (a) (b) (c) and 3. In order to document these circumstances and the
selection of international carriers over U.S. air carriers, as part of its travel and cargo expense
policies and procedures, MacGillivray will retain in its files the appropriate explanation and
underlying documentation for the selection of international carriers versus U.S. air carriers.
When the use of international carriers is clearly the first choice for cost, safety or efficiency
reasons and is outside the NSF Travel Conditions, MacGillivray will solicit a waiver of the NSF
Travel Conditions from the NSF while providing airfare/cargo charge and schedule comparisons
between international and U.S. air carriers, to support the selection of international carriers
based on lower cost and/or efficiency. Tickets and cargo way-bills must always identify the
carrier's designator code and flight number (to the extent a flight number is available if a charter
service is used).

Cost Sharing

Conrad Comment- MacGillivray did not submit annual required cost certifications. The
certification information provides NSF assurance that cost sharing requirements are being met
and provides NSF the ability to resolve any potential cost sharing problems before a particular
award expires. We did not question any of MacGillivray's cost sharing, noting that
MacGillivray has satisfactorily met the cost sharing requirements for the two completed awards
and the third award is still in progress. However, MacGillivray needs written policies and
procedures to ensure the cost sharing certification is annually and accurately completed and
submitted.

MacGillivray Response- MacGillivray has been working with NSF as the recipient of
several grants since 1997. MacGillivray had believed that it was in compliance with
regards to cost sharing certification, as it was never notified by NSF, that in fact it was not.
MacGillivray believed the annual report served as the cost sharing certification.

When MacGillivray submitted an annual report for NSF Award #0125471 via Fastlane in
January 2004, an email was automatically forwarded to MacGillivray requesting that it
complete a cost sharing notification form via Fastlane and through the newly updated
Research Administration area of Fastlane. The note indicated that until MacGillivray
completed and submitted that cost sharing form, the annual report would be deemed
unsubmitted. This is a new feature of Fastlane and will, in the future, guarantee that on an
annual basis, MacGillivray declares its cost sharing for each project for which it is required.

 Revised MacGillivray Policy and Procedure
After review for NSF compliance by the MacGillivray accounting department and approval by
the MacGillivray director of finance, the annual submission of the MacGillivray cost sharing
declaration via Fastlane shall hereby constitute MacGillivray's formal policy and procedure for
compliance with the NSF annual cost sharing certification requirement.

Conclusion
We trust we have adequately covered Conrad's findings and recommendations for action. We
appreciate the recommendations for improvement and found the Conrad staff conducting the
audit to be constructive and professional. If we have not responded comprehensively and
adequately to the draft audit report, we would appreciate the opportunity to provide further
explanations and clarification.

Sincerely,


XXXXXXXXXXX
XXXXXXXXXXX

cc: XXXXXXXXXXXXXX
    XXXXXXXXXXXXXX
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100

              Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
    National Science Foundation
    4201 Wilson Blvd., Suite 1135
         Arlington, VA 22230
